>
|

C@QCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

OFFICER GREG VASQUEZ, Individually and In
His Official Capacity; OFFICER ROBERT SANCHEZ,
Individually and In His Official Capacity,
Petitioners,

v.

MARITZA AMADOR, Individually And As Representative
Of The Estate Of Gilbert Flores And As Next Friend Of
Minor R.M.F.; VANESSA FLORES; MARISELA FLORES;
CARMEN FLORES; ROGELIO FLORES,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4955 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

a MOTARY-State of Nebraska Konse. Zz Ohh
RENEE J, GOSS 9 ay) tatty .
‘My Comm. Exp. September 5, 2023 .
Notary Public

Affiant

 

40210
